<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                            VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                    H.R. 1654, H.R. 3654, H.R. 4154,

                       H. Res. 346 and H. Res. 536

                               __________

                            DECEMBER 9, 2015

                               __________

                           Serial No. 114-125

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 
                                 
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-857 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 1654, To authorize the direct provision of defense articles, 
  defense services, and related training to the Kurdistan 
  Regional Government, and for other purposes....................     2
  Amendment in the nature of a substitute to H.R. 1654 offered by 
    the Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    12
H.R. 3654, To require a report on United States strategy to 
  combat terrorist use of social media, and for other purposes...    22
  Amendment in the nature of a substitute to H.R. 3654 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    26
      Amendment to the amendment in the nature of a substitute to 
        H.R. 3654 offered by the Honorable Darrell E. Issa, a 
        Representative in Congress from the State of California..    30
H.R. 4154, To direct the President to submit to Congress a time 
  frame for the transfer of certain naval vessels to Taiwan 
  pursuant to section 102(b) of the Naval Vessel Transfer Act of 
  2013, and for other purposes...................................    32
H. Res. 346, Condemning the use of toxic chemicals as weapons in 
  the Syrian Arab Republic.......................................    34
  Amendment in the nature of a substitute to H. Res. 346 offered 
    by the Honorable Ted S. Yoho, a Representative in Congress 
    from the State of Florida....................................    39
H. Res. 536, Supporting freedom of the press in Latin America and 
  the Caribbean and condemning violations of press freedom and 
  violence against journalists, bloggers, and individuals 
  exercising their right to freedom of speech....................    44
  Amendment in the nature of a substitute to H. Res. 536 offered 
    by the Honorable Albio Sires, a Representative in Congress 
    from the State of New Jersey.................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD
                                APPENDIX

Markup notice....................................................    72
Markup minutes...................................................    73
Markup summary...................................................    75

 
                            VARIOUS MEASURES

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up five 
bipartisan measures. Without objection, all members may have 5 
days to submit statements for the record and extraneous 
material on any of today's business.
    As all were notified yesterday, we intend to consider these 
measures en bloc, and so without objection the following items 
previously provided to members will be considered en bloc; 
they're considered as read: H.R. 1654 to authorize the direct 
provision of defense articles and services to the Kurdistan 
Regional Government; Royce Amendment 87 in the nature of a 
substitute; H.R. 3654, the Combat Terrorist Use of Social Media 
Act; Poe Amendment 81 in the nature of a substitute and Issa 
Amendment 56; H.R. 4154, the Taiwan Naval Support Act; House 
Resolution 346, condemning the use of toxic chemicals as 
weapons in the Syrian Arab Republic; Yoho Amendment 72 in the 
nature of a substitute; House Resolution 536, supporting 
freedom of the press in Latin America; and Sires Amendment 13 
in the nature of a substitute.
    [The information referred to follows:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Royce. And after recognizing myself and the 
ranking member, I'll be pleased to recognize any members 
seeking recognition to speak on these measures.
    So, we go first to H.R. 1654. This goes to the issue of the 
effort by Kurdish forces. We heard testimony in the House, from 
Secretary of Defense Carter and Chairman of the Joint Chiefs of 
Staff General Joseph Dunford. Both stated that they would be 
prepared to recommend providing direct military assistance to 
the Kurds and Sunni tribes.
    I would point out to the members that the Peshmerga is 
organized under the Iraqi constitution. Their role is to 
safeguard Iraqi Kurdistan. And, in particular, the Kurds are 
the sole U.S. allied force operating on the ground against ISIS 
in Syria and Iraq, and this has allowed them to conduct ongoing 
coordinated offensive operations in North Eastern Syria and in 
Sinjar, Iraq. This offensive, if they're successful ultimately, 
could sever control of the road connecting the major ISIS-held 
cities of Raqqa and Mosul in Syria and Iraq. So, it is very 
much in our interest to make certain, especially given the 
significant territory and the some 8 million people under that 
territory that's controlled by ISIS, that ISIS do not have the 
safehaven that they used to plan the attacks in Paris and that, 
frankly, inspired the attacks on the United States. And to keep 
America safe, I believe we've got to work with our partners on 
the ground to eliminate these sanctuaries and deny ISIS both 
the space and resources to drive additional attacks.
    For the last year and a half we've had one effective 
fighter in this fight. It is the 160,000 strong Peshmerga 
force, 30 percent of these battalions by the way are women 
fighting on the battlefields in their own battalions on the 
front lines against ISIS on a 650 mile front. They have proven 
themselves as the most dedicated and effective force against 
ISIS in Iraq; not without considerable casualties, by the way, 
with 8,500 killed and wounded on those front lines. And we're 
told by our friends in the Pentagon a lot of those losses are 
caused by the fact that they're outmatched in firepower in 
terms of the weaponry on the front lines. They are poorly 
armed, poorly equipped, especially when compared to either the 
Iraqi Army or the Iranian-backed Shia militias, or most 
crucially here, ISIS itself.
    Light arms from Saddam's rule, some of their materiel dates 
back to the Second World War, a lot of it's Soviet-era 
equipment that will break down. This isn't enough against an 
enemy that is determined to rip Iraq and Syria apart, 
butchering Iraqis, and Syrians, and now Americans.
    So, the Iraqi military remains unable to field a joint 
Sunni-Shiite force. We hope they're able to do so in the 
future, but at this moment they're relying instead on Iranian-
backed militias to fight ISIS. On the other hand, the Kurds in 
Northern Iraq are our best allies in the theater, the most 
effective local fighters against ISIS. And rather than fleeing 
from ISIS, they stand to fight with antiquated weapons as they 
continue to share with us.
    Last month it was the Kurdish forces on the ground and the 
Americans in the air that retook Sinjar. The Kurdish forces 
have accompanied U.S. special forces on night raids, a role 
that will likely increase given Defense Secretary Carter's 
announcement last week. They would like to get those night-
vision goggles, by the way.
    So, this legislation would allow the United States to 
directly arm Kurdish forces so they can get the artillery, the 
anti-tank weapons, the long-1range mortars, and the training 
and combat medicine that they need.
    This authorization, which is time-limited, would allow U.S. 
security assistance to go directly to the Kurdish Regional 
Government rather than routing it through the sectarian maze 
that is Baghdad, where they've yet to get the kind of heavy 
equipment that they need in this fight.
    The goal, obviously, is not Kurdish independence and we 
make that clear in the language of this legislation, but it is 
to get the needed materiels to the most active battlefront with 
ISIS. This is urgent legislation to counter the grave and 
direct threats ISIS poses to the United States, and ultimately 
is going to require the combined efforts of all Iraqis, 
including the Sunni tribesmen who have not gotten the support 
they desperately need from the United States. We met with them 
last week, some of their leadership, tribal leadership, and 
certainly it's going to require Baghdad to be inclusive here to 
finally defeat and destroy ISIS.
    Second, we have H.R. 3654, the Combat Terrorist Use of 
Social Media Act of 2015. And I appreciate Judge Poe 
introducing this bill. It's going to force and put the heat on 
the administration to put forward a strategy to combat 
terrorist use of social media, a strategy that the President 
talked about in 2011, but we haven't had that strategy put 
forward yet. So, this is Congress weighing in and saying let's 
have that strategy developed, because exactly 1 week ago in San 
Bernardino, California we had 14 people killed, 21 people 
injured by radical Islamists. And we know that these 
extremists, the husband and the wife, used social media, one of 
them making a pledge on Facebook to support ISIS.
    Extremist groups have turned to Twitter, to Facebook, and 
YouTube to recruit, and it's the strength of momentum of ISIS 
on the ground that allows them to do this, but they're 
recruiting, they're radicalizing, and they're encouraging 
attacks on our free society. Social media companies have taken 
some steps to remove terrorist content, but it is clear that 
much more needs to be done.
    The administration must lay out how we will contend with 
these terrorists hijacking the social network, ironically 
created by the free and pluralistic society that they so 
despise for their own twisted purposes.
    And I want to thank Representative Issa for working with 
Representative Poe and the committee on changes to strengthen 
this bill, and to allow us to learn more about the ways the 
U.S. Government and the private sector are using social media 
to push back on extremist messaging.
    Then we have House Resolution 346 condemning the use of 
chemical weapons in Syria. And earlier this year, Secretary 
Kerry testified that the administration had succeeded in 
getting all the chemical weapons out of Syria. That, 
unfortunately, as we've had hearings here about the barrel 
bombs and the chemical weapons that are still being dropped, 
the first responders are telling us from the front lines in 
Syria that Assad has been pummeling his own people with an 
unending series of bombs filled with weaponized chlorine, and 
this has been confirmed. These attacks fuel the flight of 
refugees both inside and outside of Syria, and create an 
environment in which ISIS can thrive. So, members on this 
committee have long pressed for consideration of a no-fly or 
safe zone to stop the barrel bombs, the chemical weapon bombs, 
something this resolution addresses.
    I want to thank Representative Yoho for his leadership on 
this critical issue, and urge all members to support this 
resolution.
    Then we go to the Taiwan Naval Support Act. This is 4154. 
It's been almost 1 year since the President signed into law the 
Naval Vessel Transfer Act. That's legislation that I had 
authored, and we pushed through which authorized the President 
to transfer decommissioned Naval vessels to Taiwan. Since then, 
the administration has failed to notify Congress of its intent 
to transfer these vessels, which has caused the U.S. Navy to 
delay its refurbishment and transfer one of the ships out of 
Hawaii. This is an unnecessary setback, and complicates 
planning for Taiwan's Navy, as Representative Sherman has 
pointed out to us. And I want to thank Representative Sherman 
for introducing this measure today which will press the 
administration to submit a timeline to Congress for when these 
transfers will occur. Insuring they are timely is important to 
bolstering Taiwan's defense and to insuring peace in the Taiwan 
Straits.
    And turning to the Press Freedom in the Western Hemisphere 
Act, I think this is a cornerstone of any democracy. It's our 
obligation to promote and protect this fundamental human right. 
We have all been troubled by the erosion of press freedoms in 
our own hemisphere at the hands of authoritarian, populist 
leaders and transnational criminal organizations to boot, so 
this resolution is an important expression of our support for 
the fundamental right to free expression, and of our belief 
that regional leaders and the OAS need to do more to condemn 
what in some parts is the systemic violation of press freedom.
    So, I commend Mr. Sires for introducing this resolution, 
and all who champion freedom of expression as a fundamental 
part of a vibrant, dramatic tradition. As he says, ``This 
resolution will champion their cause.'' So, with that said, 
I'll turn to Mr. Engel, our ranking member.
    Mr. Engel. Mr. Chairman, thank you for calling this Markup, 
our final Full Committee Markup of 2015. Let me say again how 
proud I am of the work of the Foreign Affairs Committee and of 
our members on both sides of the aisle. This year we've racked 
up an impressive record of achievement, and I want to thank 
you, Mr. Chairman, for your leadership and your commitment to 
leaving politics at the water's edge. And I want to also take 
this opportunity to remind our colleagues on both sides of the 
aisle that today at 5:00, from 5 o'clock to 7 o'clock in this 
very room the Foreign Affairs Committee is having its holiday 
party, and we hope that every member will attend. There'll be 
plenty of food, and it'll be another nice chance to get 
together.
    So, we have a raft of good measures before us today, and 
I'll say a few words about each. I'll start, Mr. Chairman, with 
your legislation to provide defense training and equipment 
directly to the Kurdish Regional Government. Kurdish forces in 
Northern Iraq have been some of our closest partners in the 
fight against ISIS. They're tough fighters getting real 
results, rolling back the gains ISIS has made. We need to make 
sure the Kurds have everything they need to defend themselves 
and keep the pressure on ISIS. They have really been loyal and 
true allies and friends.
    Current law requires all military assistance for the Kurds 
to flow through Baghdad. Now, this has caused some delays in 
the shipment of arms to Kurdish forces, and complicated efforts 
to supply the Kurds with the heavy weapons they need, including 
anti-tank missiles, armored vehicles, and long-range artillery.
    This legislation removes those roadblocks. It would 
authorize the President to provide military equipment directly 
to the Iraqi Kurds for a period of 3 years. It urges the 
President to continue consulting with the Iraqi Government, and 
it requires that the weapons provided to the Kurds be used to 
meet our shared goal of defeating ISIS. This just makes sense. 
The Kurds are making progress, and we need to keep the wind at 
their backs. But while the Kurds are great partners and 
formidable fighters, they cannot take on ISIS all by 
themselves, particularly outside of the traditional Kurdish 
areas of Iraq.
    At the end of the day, defeating ISIS will take the 
combined efforts of all Iraqis, and I want to be absolutely 
clear on this point; while the legislation is focused on 
supporting the Kurds, it does not in any way dial back 
America's commitment to other Iraqi partners. It does not 
endorse a divided Iraq, rather it gets military equipment where 
it will do the most good more quickly, period. In fact, it's 
imperative that we do keep working closely with Iraq's 
Government.
    Many of us have serious questions about the performance of 
the Iraqi Army, and deep concerns about the role of Iran-backed 
militias, but it's clear that the Iraqi security forces have a 
central role to play. I know on another day we can talk about 
the Kurds because I think the Kurds are people that deserve 
international support, and that's another issue to talk about 
later on, whether or not the Kurds should be trapped in an Iraq 
that seems spiraling, continuing to spiral out of control. But 
right now, it's very important that Iraqi security forces do 
have a central role to play.
    We should also support Christians, Yazidis, and other 
ethnic and religious minorities. Many of these groups have 
borne the brunt of ISIS terror and now want to help liberate 
their towns and villages.
    Finally, we should find new ways to collaborate with the 
Sunni population of Iraq. The Sunnis will play a vital role 
defeating ISIS, just as they were key to the defeat of al-Qaeda 
during the Iraq War, but they need training and equipment, so 
we need to work with the Iraqi Government to get them the 
support they need, and to make clear that they have a stake in 
the future of a unified Iraq. I know we are all aggravated over 
the fact that they seem to cut and run and let ISIS take over 
swaths of territory. Well, instead of just wringing our hands, 
we really need to do something about it. And this, I believe, 
will.
    Next, I'll turn to Mr. Poe and Mr. Sherman's bill to Combat 
the Use of Social Media by Terrorist Groups. I'm very proud to 
cosponsor this legislation. Perhaps the most searing images 
we've seen of ISIS are of Jihadi John, as he was known, 
standing over the bodies of his victims, images and videos that 
ISIS blasted around the world on social media. Thankfully, we 
don't have to worry about him any more, but whether on Twitter 
or YouTube, terrorist groups continue to take full advantage of 
social media to spread their message of violence and hatred. 
With the click of a button, groups like ISIS can use these 
platforms to broadcast video of their heinous acts, solicit 
foreign fighters, and radicalize vulnerable people around the 
world.
    We need a strategy to push back against terrorists use of 
social media to foster greater collaboration between government 
and provide sector companies, and to help identify and stop 
terrorist activities online. This bill calls for that strategy 
and will help us take on ISIS and other groups on the virtual 
battlefield. I urge all of my colleagues to support it.
    Moving on, I'm happy to support this Taiwan Naval Support 
Act sponsored by Mr. Sherman, the ranking member of our 
Subcommittee on Asia and the Pacific. I'm a strong supporter of 
Taiwan, and I think Taiwan needs to maintain a strong defense. 
Nearly a year ago, the Naval Vessel Transfer Act was signed. 
This bill authorized the sale of four guided missile frigates 
to Taiwan. Taiwan is ready to buy at least two of them, and 
restoration is underway, but Congress has yet to be notified of 
a transfer.
    Now, in my view we should be seeing even more regular 
transfers of equipment that would help shore up Taiwanese 
security. I know sales to Taiwan are always a touchy issue 
because our dealings with China are sensitive. We don't want to 
derail our work with China on issues of mutual concern, but our 
desire not to upset Beijing shouldn't come at the expense of 
Taiwan security.
    This bill would require the President to commit to a 
timeline for these sales, and communicate that timeline to 
Congress. It wouldn't force a deadline, but it would let us 
know that these sales are on track. We owe at least this much 
to our friends and partners in Taiwan. I support this 
legislation and urge my colleagues to do the same.
    I also want to voice my support for Mr. Yoho's resolution 
condemning the use of chemical weapons in Syria, and I thank 
him for his work on this measure. Two years ago, the world was 
shocked when the Assad Regime killed 1,400 of its own people, 
including hundreds of children in a chemical weapons attack in 
the outskirts of Damascus.
    In response to pressure from the international community, 
including the threat of force from the U.S., the Assad Regime 
agreed to give up all of its chemical weapons and join the 
Chemical Weapons Convention. But even before I wrote the Syria 
Accountability Act a decade ago, I never trusted Assad to keep 
his word. And true to form, he hasn't lived up to the letter or 
spirit of what he promised to do.
    Congresswoman Ros-Lehtinen partnered with me on the Syria 
Accountability Act when few knew about Assad, but we knew about 
Assad. And we knew that Assad was a negative force in the 
region, to say the least.
    Many experts believe that Assad failed to declare all of 
his banned chemical weapons to the international community. And 
we know for a fact that the regime has increasingly used 
chlorine as a chemical weapon, which is prohibited under the 
Chemical Weapons Convention.
    This resolution condemns the Assad Regime's use of chlorine 
as a chemical weapon, calls for those involved in this unlawful 
activity to be held accountable, and urges the administration 
to support efforts to collect evidence of the use of chemical 
weapons in Syria.
    And lastly, let me thank Mr. Sires for offering this 
resolution supporting press freedom in Latin America and the 
Caribbean, and condemning violence against journalists. I am 
deeply troubled that the freedom of the press is under grave 
threat in some countries right here in our neighborhood. We 
hear a great deal from regional leaders in the Americas when 
electoral democracy is at risk, and I appreciate this. 
Unfortunately, we hear too little about the subtle challenges 
to democracy, particularly violations of press freedom.
    When the Ecuadorian Government threatened to close down 
Punta Medeos earlier this year, Chairman Royce and I strongly 
condemned the effort. Fortunately, President Correa relented in 
the face of international condemnation, but this is just one 
example. Violence against journalists has become a scourge in 
the Americas. Being a journalist in Colombia, Mexico, and 
Honduras is a very dangerous business. Of course, there is no 
press freedom in Cuba. Venezuela is also a worry, and a country 
that represses freedom; although, the election held there a few 
days ago gives us pause for hope.
    This resolution shines a light on the problem and urges 
these governments to do more to provide protection to those 
journalists under threat, and I'm pleased to support it.
    So, once again, Mr. Chairman, thank you for your leadership 
and for bringing all these measures forward today. I yield 
back.
    Chairman Royce. Thank you, Mr. Engel. We now go to Ileana 
Ros-Lehtinen, and any other members who are seeking 
recognition, but Ileana Ros-Lehtinen from Florida.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman and 
Ranking Member Engel for convening this Markup, and bringing up 
all of these important measures in front of our committee in a 
bipartisan manner as you always do.
    I would also like to express my strong support for House 
Resolution 536 introduced by my dear friend, Albio Sires, of 
which I am the lead Republican sponsor. Freedom of expression 
is under attack in Latin America. We've seen it in Venezuela 
where the Maduro regime has used intimidation and control of 
the media to repress the opposition. Courageously, the 
opposition was able to beat the odds and took control of the 
legislature by a super majority just this past weekend. I 
congratulate the Venezuelan people on their tremendous win, but 
there's still a long road ahead.
    We need all political prisoners to be released immediately, 
including pro-democracy advocate, Leopoldo Lopez. In Nicaragua, 
Ortega just forced through a new sovereignty security law that 
could be used to further harass and intimidate the people in 
the media to impede freedom of expression. I worry that Ortega 
will use this as yet another tool to clamp down on civil 
society and silence the media as we approach next year's 
Presidential election.
    In Cuba, as both of you have pointed out, the Castro regime 
continues to control all print and broadcast media, and blocks 
and censors the internet. The regime also threatens, beats, 
jails, and tortures any perceived opposition, intimidating the 
Cuban people into self-censorship. Cuba has long been infamous 
for these tactics, but we also see in Venezuela, Nicaragua, 
Bolivia, Ecuador many like-minded dictatorships in Latin 
America. Regimes that want to control the flow of information 
to stay in power, repress any dissent before their survival is 
threatened, employ these tactics.
    It's crucial that we as a country continue to speak out 
against these tactics and that we do everything that we can to 
stand up for this fundamental human right to express freely 
one's views. So, I thank Albio for offering his important 
resolution. I offer my full support, and I urge my colleagues 
to do the same.
    I also want to thank my friend and colleague from Florida, 
Dr. Ted Yoho, for introducing House Resolution 346, condemning 
Assad for committing mass atrocities and for the use of 
chemical weapons, including chlorine barrel bombs.
    I was an original cosponsor of this measure, and I fully 
support it. This important resolution reminds us all of the 
grim reality and the true nature of the Assad regime. The idea 
that Assad should be part of a political solution, or that he 
can be a partner in the war against ISIS, and the war against 
terror, is appalling. Assad's ruthless tactics and wanton 
disregard for human rights and the sanctity of life has been a 
key reason why the Syrian conflict has been so devastating, and 
why ISIS has grown dramatically.
    Assad's actions have led to the deaths of over 220,000 
Syrians. Because of Assad, we have millions of refugees fleeing 
into the Middle East and Europe destabilizing these regions and 
taxing their resources.
    In July, the Wall Street Journal reported that U.S. 
intelligence agencies concluded that the Assad regime did not 
give up all of its chemical weapons, and now some reports 
suggest that ISIS may be in possession of chemical weapons, as 
well. And what has been the punishment from the international 
community for Assad's deception? Nothing. So, if the 
international community is not willing to punish Assad for 
using chemical weapons, and then lying about destroying all of 
its stockpiles, what faith do we have in keeping the Iranian 
regime accountable for its nuclear weapons program? This is a 
very dangerous situation, Mr. Chairman, and I believe that it 
is not receiving the attention it merits, so that's why I thank 
my Florida colleague, Dr. Yoho, for bringing this bipartisan 
resolution forward. I urge my colleagues to support this 
measure, and condemn the use of chemical weapons.
    Thank you so much, Mr. Chairman and Ranking Member.
    Chairman Royce. Thank you, Ileana. We now go to Mr. Brad 
Sherman of California.
    Mr. Sherman. Thank you, Mr. Chairman. We're considering 
five excellent bills here today. They're commonsense, they're 
bipartisan, and that reflects the leadership that the chair and 
the ranking member have brought to this committee.
    I'll address three of those bills. First, the Taiwan Naval 
Support Act. I want to thank the chairman for bringing up this 
bill, which we put together with a lot of input from others. 
And I want to thank the chairman, ranking member, and Mr. 
Salmon, the chairman of the Asia Subcommittee for cosponsoring 
the bill.
    When we look at the East and South China Sea, we see China 
becoming more aggressive. Already, we are spending tens or 
hundreds of billions of dollars on research, procurement, 
planning, and deployment designed to confront China. That 
invariably creates risks for the United States, and most of 
that is focused on uninhabited islets. In contrast, look at 
Taiwan. What is at stake is not uninhabited reefs but the 
entire country. And Taiwan is not asking us for deployment, or 
to spend money. They are simply asking for the tools to defend 
themselves.
    When it comes to these frigates the time has come to 
transfer the frigging frigates. We should be helping Taiwan 
defend----
    Mr. Connolly. Is that a technical term, Mr. Sherman?
    Mr. Sherman. Yes, it is, and it's in the statute with a 
page and a half of definition. Yes.
    When it comes to helping Taiwan defend itself, I think it 
should be classified as a major non-NATO ally, and I offered an 
amendment back 15 years ago to do just that. If that had 
passed, we wouldn't even need, I think, to prod the 
administration as we do now.
    In 1979, the Taiwan Relations Act was signed into law, and 
it requires the United States to make available to Taiwan such 
defense articles as may be necessary to enable Taiwan to 
maintain sufficient defense capacities, self-defense 
capacities.
    In December 2014, this Congress passed the Naval Vessel 
Transfer Act, and authorized the sale of four frigates to 
Taiwan, and the President signed that bill into law. Taiwan has 
indicated it's ready to purchase two frigates out of the four. 
It has the money to do so. It faces a budgetary deadline at the 
end of 2015, and it's time for the administration to move 
forward with this transfer.
    What this bill does is requires the administration to give 
Congress a timeline. I hope they transfer the frigates before 
they give us the timeline. That would be a very good timeline.
    Next, I'm pleased to join with Mr. Poe as the lead 
Democratic sponsor of the Combat Terrorist Use of Social Media 
Act. Three things about the bill. The State Department's 
current strategy for countering ISIS and other extremist groups 
online is obviously not working. That's not my opinion, that's 
the State Department's internal opinion which concluded in June 
of this year, when it comes to the external message, our 
narrative is being trumped by ISIS. We are losing a popularity 
contest to people that behead women.
    Public information also shows the State Department's 
strategy isn't working. The Think Again Turn Away Twitter 
campaign has 24,000 followers. In order to reach out to those 
who might be swayed by ISIS, you're going to need a much bigger 
following. This bill requires the State Department to reassess 
their approach and come up with a better, more effective 
strategy.
    Second, I'm hoping that this bill will prod the State 
Department to hire experts in Islamic theology, and in Islamic 
jurisprudence. Not everybody they hire has to be a graduate of 
an Ivy League school, or a top American school. We need just a 
couple of folks over there, graduates of Al-Azhar University in 
Egypt. I'm not saying the State Department can issue a fatwa, 
but somebody at the State Department should be paid because 
they're an expert at knowing who should be issuing a fatwa, and 
how to make our arguments consistent with all of the 
intricacies of Islamic law, and Islamic jurisprudence.
    Finally, the social media companies have played a role in 
this. I believe Facebook, YouTube, and Twitter have a 
responsibility to make sure that their platforms are not used 
by terrorists. Facebook, YouTube, and with some prodding from 
members of this committee, Twitter, have made changes to take 
down bad content, but that won't work effectively if the State 
Department isn't identifying the bad content. The only thing 
worse than playing Whac-A-Mole is to not whack the moles. And 
every time one of these terrorist sites pops up, we should get 
it before the intended audience and have it taken down before 
the intended audience. So, I look forward to the passage of the 
legislation and to a much better strategy from the State 
Department.
    Finally, as far as arming the Kurdish regional government, 
it's about time. We wouldn't have to do it if Baghdad had been 
reasonable, but if Baghdad had been reasonable we wouldn't even 
have ISIS to begin with. I yield back.
    Chairman Royce. Thank you. We go now to Mr. Dana 
Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
again I appreciate your leadership on these issues that are of 
vital importance to the security of our country and the peace 
of the world.
    Number one, obviously, we need to move forward as quickly 
as possible. It's long overdue of helping our friends, the 
Kurds, who are bearing the brunt of this whole battle against 
radical Islam in that part of the world at this time. 
Certainly, we need to combat terrorists use of the social 
media, and certainly our friends in Taiwan, if they have the 
money and they want to buy our frigging frigates, we should be 
able to make sure we provide it for them. And, of course, 
supporting press freedom in Latin America is vitally important 
because you have forces at play that can be combated with an 
informational combat rather than physical combat. And we should 
be part of that competition.
    But let me note to this condemnation of toxic chemicals by 
the Syrian regime. There's no doubt the Syrian regime is a 
murderous regime, it's a brutal regime. They're tyrannical, 
they're corrupt, blah, blah, blah. The Assad regime is the last 
Baathist regime of the region, but let us be honest about 
what's going on here. There is an uprising going on in Syria.
    I will tell you, I don't know any of the regimes in that 
part of the world that would not be as murderous and as brutal 
in suppressing, they might not use chemical weapons, but they 
will kill as many civilians as they need to maintain their 
power. In that part of the world, an uprising against a regime 
is the equivalent of World War II to them. They know if they 
lose, they lose everything.
    Now, I'm not excusing the use of chemical weapons or the 
killing of civilians, but remember collateral damage is what 
we're talking about here. And we, ourselves, understand a 
certain level of collateral damage when you are at war. The 
Assad regime, which is a tyrannical regime like our other 
allies in that region, know that if they lose an uprising they 
will be killed. And yes, we hope that collateral damage in our 
own troops is kept to a minimum, but we also know that during 
World War II when we were threatened, we carpet bombed the 
cities of Germany and Japan. We incinerated about tens of 
thousands of civilians in order to end that war, and we did 
that. So, number two, I would hope that we understand that 
we're not going to be hypocritical here by claiming that Assad 
is so bad as compared to everybody else. He's not. He's 
tyrannical, he's horrible, but he is no different in terms of 
the brutality that he would rain upon his people as any other 
regime that is allied with us in that region.
    And, finally, let me just note that I disagree with my good 
friend, Ileana Ros-Lehtinen on the point that Assad is causing 
all of these people to flee. It's not Assad that's causing it, 
it's ISIL. You have a new force moving across that part of the 
world, and without them, and I believe even without Assad in 
there, that force in that part of the world would be creating 
this refugee flow from Lybia, from Africa, and from that part 
of the world. So, I would have to say that--and one last note 
on this condemnation of toxic chemicals. It also says we should 
be open to the idea of a no-fly zone. What you're saying there 
is yes, we should be open to the idea that American airplanes 
will shoot down Russian airplanes, Russian military aircraft. I 
think that we need to do a lot of thinking before we approve 
anything like that; although, the actual resolution just says 
we should be looking at alternatives, including that. But do we 
really want to send American airplanes there to do combat with 
Russian military aircraft in order to bring Assad down, in 
order to create a more benevolent regime, which may end up 
being immediately overthrown like what happened with Qaddafi by 
racial Islamic forces. This is a very complex area, and it's a 
complex fight. Let's make sure that we're being honest with 
ourselves in our analysis of what's going on.
    And thank you very much. I will be voting with you, Mr. 
Chairman, if these are en bloc, but I stated my objections. And 
I certainly support everything in all the rest of the 
amendments.
    Chairman Royce. Thank you, Mr. Rohrabacher. Now we go to 
Mr. Albio Sires of New Jersey.
    Mr. Sires. Thank you, Chairman Royce, Ranking Member Engel, 
and the staff for their support of promoting democratic values 
around the world, and their efforts to markup this bill.
    I want to thank my good friend, Ileana Ros-Lehtinen, for 
serving as the Republican lead on this legislation. And my 
colleague, Chairman Jeff Duncan, for his leadership on this 
issue.
    Freedom of expression is the cornerstone of any democratic 
nation. It is the number one tool to hold people and 
governments accountable for their actions. In recent years, 
many organizations dedicated to freedom of speech and advancing 
civil societies have been trying to bring attention to the 
deterioration of press freedom in parts of the Western 
Hemisphere, specially Latin American and the Caribbean.
    Cuba has consistently been characterized as having one of 
the most repressive media environments in the world with the 
Castro regime controlling all aspects of the print and 
electronic media. Venezuela and Ecuador have harassed and fined 
the media, shut down their operations, and even physically 
attacked journalists who are trying to expose the state-
sponsored crackdown against peaceful political dissenters.
    In other countries, such as Mexico and Honduras, an 
increase in drug-related violence and worsening security 
situations are creating a culture of impunity, allowing 
violence against journalists and press institutions to go 
unpunished. As a child in Cuba, I witnessed the deterioration 
of Democracy as the Castro regime took over the island and 
systematically destroyed all aspects of freedom of speech and 
expression.
    There is a strong connection between a country's democratic 
values and the freedom afforded to their press. Working to 
preserve freedom of speech and pushing back against those who 
seek to quiet their dissenters should be a top priority when 
engaging our neighbors in the region. That is why I introduced 
H.R. 536, a resolution condemning violations of press freedom 
and violence against journalists, bloggers, and individuals 
exercising their right to freedom of speech.
    This resolution condemns these violations, and urges 
countries in the region to implement the recommendations of 
member states made by the Organization of American States 
Office of Special Rapporteur for Freedom of Expression, and 
urges our administration to assist the media in closed 
societies to promote free press.
    I thank the committee for their time, and I'd urge my 
colleagues to support H.R. 536.
    Chairman Royce. Thank you, Mr. Sires. We now go to Mr. 
Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief. I 
support all the resolutions. I'll just comment on two of them.
    One, I certainly support the--with respect to Kurdistan, I 
think it's embarrassing how long it's taken the administration 
basically to arm those people that have been willing to stand 
up to these murderous miscreants of ISIS. And it reminds me a 
bit of Ukraine where we've been embarrassingly delayed in 
helping those people who need help in standing up to Putin's 
bullies over there.
    And relative to Mr. Sherman's frigging frigates bill, I 
totally support him there. I was one of the founding Members of 
the Congressional Taiwan Caucus, and it's ridiculous how long 
it's taken to get this to happen. And following pretty closely 
what's going on in Taiwan, there's a lot of speculation there 
that the most recent delay has been related to the 
administration's not wanting to offend or upset President Xi of 
China who the Obama administration has believed that they need 
the support, and the assistance, and the cooperation, and their 
global warming/climate change conference in Paris. And, of 
course, they were very quick to announce the cooperation that 
we have with China, everything down the road, nothing up front. 
You know, we're supposed to do this stuff up front, which is 
going to affect our economy and if passed, which it won't, but 
if it did pass, we'd kill an awful lot of jobs here in the 
United States. But they push this stuff, they work with Xi. It 
looks like we're cooperating, but everything China does is way 
out in the future. Everything we do would be now. But a lot of 
speculation in Taiwan that that's what the most recent delay on 
this frigates is, they didn't want to upset President Xi. But I 
commend Mr. Sherman for pushing this, and will support all 
these measures. I yield back.
    Ms. Ros-Lehtinen. Thank you so much. Mr. Connolly is 
recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    I support all five bills in front of us today, and commend 
both the chairman and ranking member and their respective 
staffs for bringing bipartisan legislation before us.
    Two I'd like to just highlight briefly. One is H.R. 1654, 
authorizing the direct provision of defense articles to the 
Kurds, to the Kurdistan Regional Government. We need to do 
this. The only thing succeeding on the ground in that region 
that we've invested in is the Peshmerga. They're willing to 
fight, and they've got successes. And we ought to be supportive 
of them as robustly as we possibly can, and that's why this 
bill, I think, is so important.
    Whatever reluctance there's been in the past well, we've 
got to go through the central government of Baghdad and so 
forth, we can't afford to do that. They're effective, they're 
willing to fight, they're willing to take the risk, all they 
need is our assistance. And I think we need to provide it, and 
I'm happy to support this bill.
    And the second bill I want to highlight, as the Co-Chair of 
the Taiwan Caucus, I agree with the sentiments that have been 
expressed with respect to H.R. 4154, the Taiwan Naval Support 
Act. This is about us keeping our commitment pursuant to the 
Taiwan Relations Act. It's not about tweaking somebody else, or 
trying to provoke. It's about keeping our commitment so that 
Taiwan has the ability to defend itself. And this is a modest 
effort, and it's been going on, as Mr. Chabot said, way too 
long. And I might add, the reluctance to provoke Beijing is a 
bipartisan reluctance in terms of White Houses, and it's time 
we move on.
    Beijing needs to understand we're going to keep our 
commitment with respect to the Taiwan Relations Act. This is 
not aimed at them, it's not to provoke them, but we have a 
commitment, a statutory commitment, and we want to keep it. 
We're only talking about four frigates of the Oliver Hazard 
Perry Class, hardly something that's a threat to somebody else 
in the region, but definitely designed to help a country or a 
nation defend itself. And that's all we're doing here. I 
support the legislation as long overdue.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Connolly. Judge Ted Poe of 
Texas.
    Mr. Poe. Thank you, Mr. Chairman, and I want to thank the 
chair, ranking member, and especially my friend, Mr. Connolly 
from Virginia for helping get the Foreign Aid Transparency and 
Accountability Act to the House floor last night, passed the 
House by voice vote unanimously, and hopefully the Senate will 
take this bill up. As the chair knows, this bill passed the 
House 4 years ago in December, and the Senate blocked it, so 
maybe we can get some accountability with the State Department 
and Foreign Affairs.
    I want to echo also what Mr. Connolly mentioned about the 
Kurds. It's ironic that when ISIS first started their battle 
with the Iraqi troops, the Iraqi troops cut and ran, left 
American equipment on the battlefield. ISIS took that 
equipment, including tanks and trucks, and every type of weapon 
you can come up with. It seems only fair that we get the same 
kind of equipment to the Kurds who are now fighting ISIS with 
the equipment that we sent the Kurds who left it there on the 
battlefield. So, I think that we--I support this bill with 
helping out the Kurds.
    The bill I really want to talk most about is the bill that 
my friend, Mr. Sherman, and I are cosponsoring, and that's the 
social media bill, that terrorist organizations have used 
social media, and it's exploded over the last few years. A 
recent Brookings Institution found ISIS has 40,000 Twitter 
accounts, and they use these accounts for not only propaganda, 
not only to recruit, but also to raise money for their 
terrorist organizations.
    Al-Qaeda affiliate Al Shabab live-tweeted its attack on a 
Kenyan mall that killed 72 people. The recipes for bombs used 
in the Boston marathon attacks were published in al-Qaeda's 
Inspire Magazine online. Al-Qaeda branch in Yemen known as AQAP 
held a press conference on Twitter allowing users to submit 
questions that were answered by a terror group and posted back 
on Twitter the following week.
    In October, ISIS issued a new instruction manual on how 
terrorists can use social media, so they can pull up the 
instruction manual on social media and read about how to use 
social media to further their activities. There are between 27 
and 31,000 foreign fighters in foreign countries, 86 countries. 
That's double the number from last year.
    The FBI says that instead of terrorists now having to go to 
Syria or Iraq to train, all they have to do is log on and get 
online training. That is quite disturbing.
    Since March 2014, 71 people in the United States have been 
charged with crimes related to ISIS. They don't fit any ethnic 
profile. There's a trio of teenagers, siblings from Chicago, 
former Air Force mechanic in his late 40s from New Jersey, and 
a mother of two from Philadelphia. But nearly all of them had 
spent hours online voicing their support for ISIS, and later 
were arrested on their online posts after that drew the 
attention to the FBI.
    The Federal Government does not have a strategy to counter 
this problem of online radicalization. In 2011, the 
administration acknowledged terrorists' use of social media and 
promised a strategy to prevent online radicalization. We don't 
have that strategy. This legislation says let's come up with a 
strategy to prevent terrorist groups, foreign terrorist groups 
using social media.
    Facebook and YouTube have done a pretty good job of 
bringing down these sites. Twitter has not. This bill, H.R. 
3654 to combat terrorists use of social media, requires the 
President to come up with a strategy. A suggested protocol 
would be the same strategy that social media companies use to 
bring down child pornography sites. They have a strategy, a 
protocol that works to bring down these sites. It would seem to 
me they could use the same strategy, the same protocol to bring 
down these terrorist sites.
    And just to be clear, a foreign terrorist organization does 
not have a constitutional right under the First Amendment. 
That's already been ruled in Holder v. Humanitarian Law Project 
in 2010. If it's a foreign terrorist organization, the 
constitution doesn't protect those foreign terrorist 
organizations from using social media to radicalize, to preach 
their propaganda, and to raise money, and I support this bill.
    Thanks again, Mr. Sherman, and I support all the other 
bills, as well. I yield back, Mr. Chairman. Thank you.
    Chairman Royce. Thank you, Mr. Poe. Lois Frankel of 
Florida.
    Ms. Frankel. Thank you, Mr. Chair, and I thank the ranking 
member, and all my colleagues who brought these good bills and 
resolutions, which I will support. And I want to add my voice 
to my colleagues who have pretty much said what I feel about 
Bashar al-Assad, which he is a scourge to humanity. And to me, 
it doesn't matter whether there's anyone better or worse than 
him. He needs to be condemned for what he's going.
    But moving on, I wanted to make a comment. You know, 
yesterday, one of the Presidential candidates whose name I will 
not promote, he called on our country as a way of combating 
terrorism to ban Muslims from entering the country. Not only 
were his remarks unfair, and prejudicial, and contrary to our 
American values and way of life, those remarks were dangerous, 
they were inflammatory, they serve to further pit the United 
States against the Muslim world at a time when we need allies 
in that arena who will fight with us and join with us to 
destroy the terrorists that would take away our lives and our 
way of life.
    And that's why I am very proud to be here today, Mr. Chair, 
with my colleagues as we are showing our constituents and the 
American people that there are sensible efforts that we can 
make to combat terrorism, while maintaining our respect, our 
dignity, and our American values. And I'm honored to support 
these efforts today, and I yield back.
    Chairman Royce. Thank you, Lois Frankel. We now go to Mr. 
Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And I want to align 
myself with the comments of Judge Poe from Texas on H.R. 1654, 
arming the Kurds. And I would encourage anyone that hasn't 
traveled to Erbil to meet with the Kurdish leaders and 
understand these noble people, I would encourage that because 
we need to arm them. They've been a strong ally in the region.
    I also want to align myself with the comments that Judge 
Poe made on 3654 about the use of social media. And I'm glad 
we're taking that bill up in this particular committee hearing 
Markup.
    As cosponsor of H.R. 536 with Congressman Sires, I want to 
raise my voice in support of it, and thank the ranking member 
of the Western Hemisphere Subcommittee for his efforts and 
passion on the issue of press freedoms in the Americas. The 
ability to speak openly without censure or fear of reprisal is 
a hallmark of free peoples everywhere, and the freedom of the 
press is critical to sustaining Democracy and the Rule of Law.
    In July, the Western Hemisphere Subcommittee held a hearing 
to examine the threats to press freedoms in the Americas, and 
we heard testimony of severe government repression and outright 
targeting of journalists by Cuba, Venezuela, and Ecuador, and 
the terrible impact to journalists from organized crime, 
corruption, and impunity in other countries in the region.
    According to Reporters Without Borders, 2015 World Press 
Freedom Index, only three countries in the Western Hemisphere 
managed to score in the top 20 of 180 countries documented, and 
those were Canada, Jamaica, and Costa Rica. Notoriously, Mexico 
and Cuba were among the worst offenders in the Western 
Hemisphere listed in that report. In addition to these 
countries, Ecuador, Honduras, and Peru all received the worst 
press freedom scores in over a decade from Freedom House. So, 
all in all, it's important for the United States to promote 
freedom of the press, and this resolution is an important step 
in doing that. I fully support it as Chairman of the Western 
Hemisphere Subcommittee. And with that, I yield back.
    Chairman Royce. We'll go now to Joaquin Castro of Texas.
    Mr. Castro. Thank you, Chairman. And I, too, echo the 
sentiments that these are five very good pieces of legislation 
before us today, and I'd like to quickly address three of them.
    The first one is H.R. 1654 with respect to arming the 
Kurds. What I appreciate most about this piece of legislation 
is that it represents the United States Congress taking an 
active role in shaping our policy in the war on terror, and the 
war against ISIS. For too long, I think this Congress has been 
both a spectator and a Monday morning quarterback when it comes 
to dealing with the war on terror. We have to take action. We 
have to eventually pass another AUMF for the President. So 
thank you, Chairman, for bringing this piece of legislation 
forward.
    The second one is that by Chairman Poe, H.R. 3654 to combat 
terrorist use of social media. We understand that there are 
many components to the war on terror, but to really win this 
war, we have to stop these folks from communicating their 
message and inspiring people to commit heinous acts in the 
United States and other parts of the world. It's important that 
our social media companies partner with us in that endeavor. 
So, thank you to Chairman Poe for that.
    And then, finally, H. Res. 536, supporting press freedom in 
Latin America. Thank you to my colleague, Albio Sires, for 
that. When you think about what's going on in places like Cuba, 
31 journalists detained in 2014 in Venezuela with the rough few 
years that they've had under President Maduro, and also in 
Mexico where dozens of journalists have been hurt, injured, or 
killed not only sometimes by the government there, or 
governments, whether it's the Federal Government or the local 
governments, but also by those involved in the drug trade. So, 
this is not just an issue of protecting the press from state 
action or government action, but also asking the governments in 
these countries to make sure that journalists are being 
protected from private actors, from criminals. So, Albio, thank 
you for this piece of legislation. I yield back.
    Chairman Royce. Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Chairman Royce and Ranking Member 
Engel. I have an amendment in the nature of a substitute that 
updates the numbers of the Syrian death and refugees, as well 
as a few other points to H. Resolution 346.
    This resolution is extremely important as it condemns the 
Assad regime for the atrocities against the Syrian people 
despite the adoption of the United Nations Security Council 
Resolution 2209, including the use of barrel bombs which are 
made up of liquid chlorine as a weapon placed in 55-gallon 
drums filled with scrap metal, TNT, and dropped in residential 
neighborhoods at night on their own people.
    The civil war in Syria has been raging for over 4 years 
resulting in over 250,000 deaths, six and a half million 
internally displaced refugees, at least 4 million people have 
fled that country. This has led to the largest displacement of 
people since World War II, creating a refugee crisis not just 
seen in Syria and the Middle East, but in the world. This has 
facilitated ISIS' growing strength in terrorist activity.
    As recently as last June, Samantha Power testified before 
this committee that there are serious and alarming reports that 
Assad has been turning chlorine into a chemical weapon via the 
barrel bombs. This resolution condemns this abhorrent behavior, 
and urges the United States and her allies and partners to seek 
a comprehensive strategy in Syria.
    If we are serious about bringing this civil war to an end, 
I urge unanimous support for this large bipartisan- supported 
resolution, for a period of 4 years is way too long for there 
not to be a plan to stop this atrocity. And thanks again to 
Chairman Royce, Ranking Member Engel, Eddie Acevedo, Tom 
Sheehy, and on the Foreign Affairs Committee, their staff and 
our team, Jimmy Walsh, and all who have helped with this 
resolution. And I yield back. Thank you.
    Chairman Royce. Thank you, Mr. Yoho. Do any other members 
seek recognition?
    Hearing no further requests, the question occurs on the 
items considered en bloc. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Royce. All those opposed, no.
    [No response.]
    Chairman Royce. In the opinion of the chair, the ayes have 
it and the measure is considered en bloc are agreed to. And 
without objection, the measures considered en bloc are ordered 
favorably reported as amended, and staff is directed to make 
any technical and conforming changes.
    And also without objection, the chair is authorized to seek 
House consideration of these measures under suspension of the 
rules. And that concludes our business for today.
    I want to thank Ranking Member Engel and all our committee 
members for their contributions, and all of their assistance 
with today's Markup. The committee is--oh, and Mr. Engel is 
right to remind everyone that at 5 o'clock this evening, the 
committee will re-adjourn here for the holiday. Okay? All 
right. Until then, we stand adjourned.
    [Whereupon, at 11:39 a.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      
              
   

                                 [all]
</pre></body></html>
